                                                                    Federal Register / Vol. 71, No. 237 / Monday, December 11, 2006 / Proposed Rules                                             71501

                                               Department of the Treasury is soliciting                effectiveness of OFAC’s licensing                       Approved: November 28, 2006.
                                               comments on the effectiveness of                        procedures for the export of agricultural             Adam J. Szubin,
                                               OFAC’s licensing procedures for the                     commodities, medicine, and medical                    Director, Office of Foreign Assets Control.
                                               exportation of agricultural commodities,                devices to Sudan and Iran. Interested                 [FR Doc. E6–21005 Filed 12–8–06; 8:45 am]
                                               medicine, and medical devices to Sudan                  parties submitting comments are asked                 BILLING CODE 4810–25–P
                                               and Iran. Pursuant to section 906(c) of                 to be as specific as possible. All
                                               the Trade Sanctions Reform and Export                   comments received on or before January
                                               Enhancement Act of 2000 (Title IX of                    10, 2007 will be considered by OFAC in                DEPARTMENT OF HEALTH AND
                                               Pub. L. 106–387, 22 U.S.C. 7201 et seq.)                developing the report to the Congress. In             HUMAN SERVICES
                                               (the ‘‘Act’’), OFAC is required to submit               the interest of accuracy and
                                               a biennial report to the Congress on the                completeness, OFAC requires written                   Office of Inspector General
                                               operation of licensing procedures for                   comments. Comments received after the
                                               such exports.                                                                                                 42 CFR Part 1001
                                                                                                       end of the comment period will be
                                               DATES: Written comments should be
                                                                                                       considered, if possible, but their
                                               received on or before January 10, 2007                                                                        Solicitation of New Safe Harbors and
                                                                                                       consideration cannot be assured. OFAC                 Special Fraud Alerts
                                               to be assured of consideration.
                                                                                                       will not accept comments accompanied
                                               ADDRESSES: Direct all written comments                  by a request that part or all of the                  AGENCY:  Office of Inspector General
                                               to the Licensing Division, Office of                    comments be treated confidentially                    (OIG), HHS.
                                               Foreign Assets Control, Department of                   because of their business proprietary                 ACTION: Notice of intent to develop
                                               the Treasury, 1500 Pennsylvania                                                                               regulations.
                                                                                                       nature or for any other reason. OFAC
                                               Avenue, NW., Washington, DC 20220.
                                                                                                       will return such comments when
                                               FOR FURTHER INFORMATION CONTACT:                                                                              SUMMARY: In accordance with section
                                                                                                       submitted by regular mail to the person               205 of the Health Insurance Portability
                                               Requests for additional information
                                                                                                       submitting the comments and will not                  and Accountability Act (HIPAA) of
                                               about these licensing procedures should
                                                                                                       consider them. All comments made will                 1996, this annual notice solicits
                                               be directed to the Licensing Division,
                                                                                                       be a matter of public record. Copies of               proposals and recommendations for
                                               Office of Foreign Assets Control,
                                               Department of the Treasury, 1500                        the public record concerning these                    developing new and modifying existing
                                               Pennsylvania Avenue, NW.,                               regulations may be obtained from                      safe harbor provisions under the Federal
                                               Washington, DC 20220, telephone: (202)                  OFAC’s Web site (http://www.treas.gov/                anti-kickback statute (section 1128B(b)
                                               622–2480. Additional information about                  ofac). If that service is unavailable,                of the Social Security Act), as well as
                                               these licensing procedures is also                      written requests may be sent to: Office               developing new OIG Special Fraud
                                               available under the heading ‘‘Other                     of Foreign Assets Control, U.S.                       Alerts.
                                               OFAC Sanctions Programs’’ at http://                    Department of the Treasury, 1500                      DATES: To assure consideration, public
                                               www.treas.gov/ofac.                                     Pennsylvania Ave., NW., Washington,                   comments must be delivered to the
                                               SUPPLEMENTARY INFORMATION: The                          DC 20220, Attn: Merete Evans.                         address provided below by no later than
                                               current procedures used by OFAC for                        Effective September 21, 2004,                      5 p.m. on February 9, 2007.
                                               authorizing the export of agricultural                  Executive Order 13357 terminated the                  ADDRESSES: Please mail or deliver your
                                               commodities, medicine, and medical                      national emergency declared in                        written comments to the following
                                               devices to Sudan and Iran are set forth                 Executive Order 12543 of January 7,                   address: Office of Inspector General,
                                               in 31 CFR 538.523–526 and 31 CFR                        1986, with respect to the policies and                Department of Health and Human
                                               560.530–533. Under the provisions of                    actions of the Government of Libya and                Services, Attention: OIG–111–N, Room
                                               section 906(c) of the Act, OFAC must                    revoked Executive Orders 12543, 12544                 5246, Cohen Building, 330
                                               submit a biennial report to the Congress                of January 8, 1986, and 12801 of April                Independence Avenue, SW.,
                                               on the operation, during the preceding                  15, 1992 (all of which had imposed                    Washington, DC 20201.
                                               two-year period, of the licensing                       sanctions against Libya in response to                  We do not accept comments by
                                               procedures required by section 906 of                                                                         facsimile (FAX) transmission. In
                                                                                                       the national emergency). Consequently,
                                               the Act for the export of agricultural                                                                        commenting, please refer to file code
                                                                                                       the prohibitions of the Libyan Sanctions
                                               commodities, medicine, and medical                                                                            OIG–111–N. Comments received timely
                                               devices to Sudan and Iran. This report                  Regulations, 31 CFR Part 550 (the
                                                                                                                                                             will be available for public inspection as
                                               is to include:                                          ‘‘LSR’’), have been lifted, and all
                                                                                                                                                             they are received, generally beginning
                                                  (1) The number and types of licenses                 property and interests in property                    approximately 3 weeks after publication
                                               applied for;                                            blocked under the LSR have been                       of a document, in Room 5541 of the
                                                  (2) The number and types of licenses                 unblocked. Accordingly, specific                      Office of Inspector General at 330
                                               approved;                                               licenses issued by OFAC for the export                Independence Avenue, SW.,
                                                  (3) The average amount of time                       of agricultural commodities, medicine,                Washington, DC, on Monday through
                                               elapsed from the date of filing of a                    and medical devices to Libya are no                   Friday of each week from 8 a.m. to 4:30
                                               license application until the date of its               longer required pursuant to the LSR                   p.m.
                                               approval;                                               and, therefore, OFAC is not soliciting                FOR FURTHER INFORMATION CONTACT: Joel
                                                  (4) The extent to which the licensing                comments on its licensing procedures                  Schaer, (202) 619–0089, OIG
                                               procedures were effectively                             under that program. This termination of               Regulations Officer.
                                               implemented; and                                        the Libya Sanctions does not, however,                SUPPLEMENTARY INFORMATION:
mstockstill on PROD1PC61 with PROPOSALS




                                                  (5) A description of comments                        eliminate the need to comply with other
                                               received from interested parties about                  provisions of law, including the Export               I. Background
                                               the extent to which the licensing
                                                                                                       Administration Regulations, 15 CFR                    A. OIG Safe Harbor Provisions
                                               procedures were effective, after holding
                                                                                                       parts 730 et seq., which are                            Section 1128B(b) of the Social
                                               a public 30-day comment period.
                                                  This notice solicits comments from                   administered by the U.S. Department of                Security Act (the Act) (42 U.S.C. 1320a–
                                               interested parties regarding the                        Commerce.                                             7b(b)) provides criminal penalties for


                                          VerDate Aug<31>2005   14:58 Dec 08, 2006   Jkt 211001   PO 00000   Frm 00010   Fmt 4702   Sfmt 4702   E:\FR\FM\11DEP1.SGM   11DEP1
                                               71502                Federal Register / Vol. 71, No. 237 / Monday, December 11, 2006 / Proposed Rules

                                               individuals or entities that knowingly                  directly to the health care provider                  in Appendix F to the OIG Semiannual
                                               and willfully offer, pay, solicit or                    community, as well as to those charged                Report referenced above.
                                               receive remuneration in order to induce                 with administering the Federal health
                                                                                                                                                             A. Criteria for Modifying and
                                               or reward business reimbursable under                   care programs.
                                                                                                         In developing these Special Fraud                   Establishing Safe Harbor Provisions
                                               the Federal health care programs. The
                                               offense is classified as a felony and is                Alerts, OIG has relied on a number of                   In accordance with section 205 of
                                               punishable by fines of up to $25,000                    sources and has consulted directly with               HIPAA, we will consider a number of
                                               and imprisonment for up to 5 years. OIG                 experts in the subject field, including               factors in reviewing proposals for new
                                               may also impose civil money penalties,                  those within OIG, other agencies of the               or modified safe harbor provisions, such
                                               in accordance with section 1128A(a)(7)                  Department, other Federal and State                   as the extent to which the proposals
                                               of the Act (42 U.S.C. 1320a–7a(a)(7)), or               agencies, and those in the health care                would effect an increase or decrease
                                               exclusion from the Federal health care                  industry.                                             in—
                                               programs, in accordance with section                    C. Section 205 of Public Law 104–191                    • Access to health care services,
                                               1128(b)(7) of the Act (42 U.S.C. 1320a–                                                                         • The quality of services,
                                               7(b)(7)).                                                  Section 205 of Public Law 104–191
                                                                                                       requires the Department to develop and                  • Patient freedom of choice among
                                                  Since the statute on its face is so
                                                                                                       publish an annual notice in the Federal               health care providers,
                                               broad, concern has been expressed for
                                               many years that some relatively                         Register formally soliciting proposals                  • Competition among health care
                                               innocuous commercial arrangements                       for modifying existing safe harbors to                providers,
                                               may be subject to criminal prosecution                  the anti-kickback statute and for                       • The cost to Federal health care
                                               or administrative sanction. In response                 developing new safe harbors and                       programs,
                                               to the above concern, the Medicare and                  Special Fraud Alerts.                                   • The potential overutilization of the
                                               Medicaid Patient and Program                               In developing safe harbors for a                   health care services, and
                                               Protection Act of 1987, section 14 of                   criminal statute, OIG is required to                    • The ability of health care facilities
                                               Public Law 100–93, specifically                         engage in a thorough review of the range              to provide services in medically
                                               required the development and                            of factual circumstances that may fall                underserved areas or to medically
                                               promulgation of regulations, the so-                    within the proposed safe harbor subject               underserved populations.
                                               called ‘‘safe harbor’’ provisions,                      area so as to uncover potential                         In addition, we will also take into
                                               specifying various payment and                          opportunities for fraud and abuse. Only               consideration other factors, including,
                                               business practices which, although                      then can OIG determine, in consultation               for example, the existence (or
                                                                                                       with the Department of Justice, whether               nonexistence) of any potential financial
                                               potentially capable of inducing referrals
                                                                                                       it can effectively develop regulatory                 benefit to health care professionals or
                                               of business reimbursable under the
                                                                                                       limitations and controls that will permit             providers that may take into account
                                               Federal health care programs, would not
                                                                                                       beneficial and innocuous arrangements                 their decisions whether to (1) order a
                                               be treated as criminal offenses under the
                                                                                                       within a subject area while, at the same              health care item or service or (2) arrange
                                               anti-kickback statute and would not
                                                                                                       time, protecting the Federal health care              for a referral of health care items or
                                               serve as a basis for administrative
                                                                                                       programs and their beneficiaries from
                                               sanctions. OIG safe harbor provisions                                                                         services to a particular practitioner or
                                                                                                       abusive practices.
                                               have been developed ‘‘to limit the reach                                                                      provider.
                                               of the statute somewhat by permitting                   II. Solicitation of Additional New
                                                                                                                                                             B. Criteria for Developing Special Fraud
                                               certain non-abusive arrangements, while                 Recommendations and Proposals
                                                                                                                                                             Alerts
                                               encouraging beneficial and innocuous                       In accordance with the requirements
                                               arrangements’’ (56 FR 35952, July 29,                   of section 205 of Public Law 104–191,                   In determining whether to issue
                                               1991). Health care providers and others                 OIG last published a Federal Register                 additional Special Fraud Alerts, we will
                                               may voluntarily seek to comply with                     solicitation notice for developing new                also consider whether, and to what
                                               these provisions so that they have the                  safe harbors and Special Fraud Alerts on              extent, the practices that would be
                                               assurance that their business practices                 December 9, 2005 (70 FR 73186). As                    identified in a new Special Fraud Alert
                                               will not be subject to liability under the              required under section 205, a status                  may result in any of the consequences
                                               anti-kickback statute or related                        report of the public comments received                set forth above, as well as the volume
                                               administrative authorities.                             in response to that notice is set forth in            and frequency of the conduct that
                                                  Existing OIG safe harbors describing                 Appendix F to the OIG’s Semiannual                    would be identified in the Special Fraud
                                               those practices that are sheltered from                 Report covering the period April 1,                   Alert.
                                               liability are codified in 42 CFR 1001.                  2006, through September 30, 2006.1 OIG                  A detailed explanation of
                                               B. OIG Special Fraud Alerts                             is not seeking additional public                      justifications for, or empirical data
                                                                                                       comment on the proposals listed in                    supporting, a suggestion for a safe
                                                 OIG has also periodically issued                                                                            harbor or Special Fraud Alert would be
                                                                                                       Appendix F at this time. Rather, this
                                               Special Fraud Alerts to give continuing                                                                       helpful and should, if possible, be
                                                                                                       notice seeks additional
                                               guidance to health care providers with                                                                        included in any response to this
                                                                                                       recommendations regarding the
                                               respect to practices OIG finds                                                                                solicitation.
                                                                                                       development of proposed or modified
                                               potentially fraudulent or abusive. The
                                                                                                       safe harbor regulations and new Special                 Dated: December 6, 2006.
                                               Special Fraud Alerts encourage industry
                                                                                                       Fraud Alerts beyond those summarized                  Daniel R. Levinson,
                                               compliance by giving providers
                                               guidance that can be applied to their                                                                         Inspector General.
mstockstill on PROD1PC61 with PROPOSALS




                                                                                                         1 The OIG Semiannual Report can be accessed
                                               own practices. OIG Special Fraud Alerts                 through the OIG Web site at http://oig.hhs.gov/       [FR Doc. E6–20994 Filed 12–8–06; 8:45 am]
                                               are intended for extensive distribution                 publications/semiannual.html.                         BILLING CODE 4150–04–P




                                          VerDate Aug<31>2005   14:58 Dec 08, 2006   Jkt 211001   PO 00000   Frm 00011   Fmt 4702   Sfmt 4702   E:\FR\FM\11DEP1.SGM   11DEP1
